No.

IN THE
SUPREME COURT OF THE UNITED STATES

Han id Reza Hrdan eh
— PETITIONER
(Your Name)
vs.

\J.S. Govern men i, ef ah

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United Sta tes Cove t of Appeals foe the First Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Hawid Rezo, firdan eh
(Your Name)

20 Administration

Road

(Address)

Bridgewater Mf\ 02324^City, State, Zip Code)

RECEIVE
APR -8 2021
OFFICE OF THE CLERK
.SUPREME COURT. IIS

279 4-500
none Number)

Questions Presented

1- Why Discriminated and absolutely illegal arrested the defendant?
2- Why Discriminated and absolutely illegal Jailed the defendant?
3- Why by allegedly unconstitutional grand jury making false indictments for the defendant?
4- Why mental and physical torture for the Iranian legal refugee are not illegal in the United
States?
5- Why attack physically and mentally for the Iranian legal refugee are not illegal in the United
States?
6- Why keeping not mentally ill the Iranian legal refugee in the mental hospital and forcing him
to take false psych medications are not illegal in the United States?
7- Why 5 counts of the intimidations of witness and 5 counts of the bribes are not crimes for the
American Jewish rich people in the United States?
8- If you have justice in the United States so why hiding crimes for protecting guiltys and jailed
actual innocence?
9- Why in the United States are not fundamental and Constitutional rights Civil Rights and Human
Rights for the Iranian legal refugee?
10-Why the United States violated all Constitutional rights, all fundamental rights, all civil rights
and all human rights for actual innocence Iranian legal refugee the defendant Hamid Reza
Ardaneh?
11-The Commonwealth of Massachusetts what evidence have for prove of false criminal and
mental health charges for the defendant and what evidence have for foreign him to take false
psych medications?

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
D.S. GOVERNMENT
U.S. JEWISH MAFIA
U.S. DEPARTMENT OF JUSTICE
U.S. DISTRICT COURT FOR THE DISTRICT OF MASSACHUSETTS
U.S. DISTRICT COURT FOR THE DISTRICT OF COLUMBIA
UNITED NATIONS
COMMONWEALTH OF MASSACHUSETTS
SANAZ SIYONIT
JACOB BABAI
DAVID MERFELD
BONNIE FRIEDMAN
MIDDLESEX SUPERIOR COURT
CLERK OF THE MIDDLESEX SUPERIOR COURT
GRAND JURY OF THE MIDDLESEX
DISTRICT ATTORNEY CEARA MAHONEY
INTERPRETER ALI TALEBINEJAD
INTERPRETER JASMIN PAKIZEGI
SUPERINTENDENT OF THE JAIL BILLERICA
SUPERINTENDENT OF THE BRIDGEWATER STATE HOSPITAL

BROCKTON DISTRICT COURT
CLERK OF THE BROCKTON DISTRICT COURT
CAMBRIDGE DISTRICT COURT
CAMBRIDGE FAMILY COURT
DOCTOR CHRISTOPHER MYERS
EVALUATOR SARA LANIADO
HEATHER STROUD
ERIN REGAN
JAMES DEBLOIS
JOHN COTE
ABDULLAH ALJOBORI

"Tflbig of Contenfs

Opinions 8el 0_W.

f

JujrLsJj cf IO_a___________ ____ ______— ---------Cnnsiifat longI. and Stater torylrovls.ioos Involved.
Staten enl of facts and Exculpatory Information------

Z

Mater]jditx

12

............. ............ - —

Defendant's. ftryjuvent_______________ _
Xisf-QM&easo^ofalMrrors^mMkuses^
Article II to the Mass. Cons tftution —-----Pi rtfcte 29 fo the Mass. Constitut/an ——
.Reasons far Grant>ng. the.Petition —
.Con d USion___ __ _____ - ______
. . Proof of Service ____—______:..... .......-

!

J-i

3
4
IZ

25
31
31

33
34
3B

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

^ For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at______________________________________ ; or,
has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix «_to
the petition and is
[ ] reported at
; or,
has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

For cases from federal courts:
The date on which the United States Court of Appeals decided my case

was 01 / 26/ 2021_______

j)(| No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________ _______ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Class, Const - /fof/cie I

Mass* Const ftfiiicle 10
Mass. Cansh Raiicle H
Mass■ Consi- /OHOi?
MaiS-CenSt*
Const Flme/)<\nQgn1r I
U-5 . C&nst flffgndiVfn't 5
. C^f- Rmn^eni 6

u.s

U.5

.. Consi- Rwtodroed ]4

G.lx. zn i 3
U U 5 c 1331
2g \J$c 1343 O)
2g U £ C 1443 CO
42. U S C 2000 (l
42 L) S C l?£3‘
42 DSC

2£ use 1254(0
2g U SC 12£7 (.«)

3

Statement of Facts and Exculpatory Information

I Hamid Reza Ardaneh making this Exculpatory Information; and Brief Pursuant to Mass. R.
Crim. P.14 (a)(l)(A)(iii), Brady v. Maryland, 373 U.S. 83(1963), Unite States v. Augurs ,427 U.S.
97 (1976). United States v. Bagley, 473 U.S. 667(1985), Kyles v. Whitley, 514 U.S. 419(1995),
Commonwealth v. Ellison, 376 Mass. 1(1978), and Commonwealth v. Tucceri, 412 Mass. 401
(1992).
I Hamid Reza Ardaneh Begin duly sworn state:
1.

On 06/12/1978 without choice I was bom in the Iran.

2.

On 1998 the alleged victim Sanaz Siyonit was my Jewish girlfriend in the Iran.

3.

On 07/13/2000 I married the alleged victim Sanaz Siyonit.

4.

On 06/26/2001 was bom my son.

5.

20 years only I was working, the Alleged Victim my wife Sanaz Siyonit had always joy and
never working in the Iran.

6.

On 1Q/01/2015 the alleged victim my wife Sanaz Siyonit and my son and I by using my money
and using visa refugee absolutely legal came to the United States and moved into the Home of
David Merfeld and Bonnie Friedman in Belmont but the U.S. Government and Commonwealth
of Massachusetts by discrimination based on race language, religion and national origin wants
making false crimes and Jailed me for whole life or to deport me or using dangerous prisoners
to kill me because taking my son from me and making American Jewish husband for my wife
because my Iranian wife of 18 years and my son are Jewish but I am not Jewish. The United
States violated my Rights under first Amendment to the U.S. Constitution freedom of Religion.
The United States Making this plot before we came to the United States and by trick gave visa
Refugee for me and my family for destroy my life and taking my wife and my son from me.

4

My wife was agreed with offer of the United States for making false crimes for me and accept
American Jewish Rich husband.
7.

On 6/1/2016 the alleged victim came home from work at 6:30 PM, the defendant and the
alleged victim and their son together ate dinner at 8:00 PM, after dinner the alleged victim and
their son watch TV and the defendant play game in his cellphone. At 11:30 PM their son went
in his room and asleep and the alleged victim and the defendant together asleep at 12:00 PM.

8.

On 6/2/2016 the Alleged victim and the defendant and their son and David Merfeld and Bonnie
Friedman was in the home. The defendant was asleep and without any happened the alleged
victim Sanaz Siyonit went to work at 6:00 AM.

9.

On 06/10/2016 Sanaz Siyonit and her family Jacob Babai, David Merfeld and Bonnie
Friedman Stole $ 20,000 my money.

10. On 6/17/2016 a false restraining order was filed allegedly unconstitutional against me by my
wife of 18 years the alleged victim Sanaz Siyonit, hearing date was on 6/29/2016 in the
Cambridge District Court, police brought me to a Hotel in Cambridge I was not arrested.
11. On 6/19/2016 the alleged victim (my wife) in complete disregard of restraining order begins a
series of messages and voicemail communications with the Dependent’s sister stated the
defendant not must go to the Court and must leave the Country or I will have him deported, “I
will fuck his mouth”, (see Exhibits)
12. On 6/19/2016 the alleged victim (my wife) sent the text messages for Intimidating and Bribing
the defendant first by $1000 then $3000 then $7000 and lastly $15000, also said paid $1000
and bought the airline ticket for the defendant and he must leave the U.S.A. or he will be
arrested. “Police are waiting”. (See Exhibits)

5

13. On 6/19/2016 at 3 PM the alleged victim’s Uncle Jacob Babai and two Jewish Family
members David Merfeld and Bonnie Friedman contacted the defendant and Requested a
meeting for show him the money for Bribes.
14. The defendant Hamid Agrees to meet only if done at the Police station in Cambridge because
he wanted making the video evidence for prove of the Intimidations and the bribes.
15. On 6/19/2016 at 7 to 8 PM Jacob and Bonnie and David meet with the defendant at the lobby
Cambridge Police Station and under review of camera counted $7000 in the cash and gave him
the airline ticket stating if the defendant goes to the Airport, he will get this $7000 in the
Airport.
16. The alleged victim stated if the defendant didn’t go, he would be arrested j ailed and deported.
(see Exhibit)
17. On 6/19/2016 at 7:45 PM the defendant says no I won’t take the money I cancelled the airline
ticket, “I will never leave the United States” and “I will go to Court.” Refused to leave the
U.S.A., refused to take the bribes from the alleged victims and her family.
18. On 6/19/2016 at 8:22 PM 30 minutes after the defendant refused to $7000 cash bribe and
refused to leave the U.S.A., the defendant’s wife (the Alleged victim) goes to the Belmont
Police Station and files false police reports and false charges of rape on 6/2/2016 and allegedly
against the defendant. The alleged victim Sanaz Siyonit bought the airline ticket for the
defendant, by using bribes and intimidations want to force him to leave the U.S.A., she making
false reports to the police and said Hamid have the airline ticket wanted to leave the United
States and go back to the Iran. Based on this false statement the Belmont police arrested the
defendant the next day.
19. On 6/19/2016 at 10:15 PM the flight to Iran was scheduled to leave the Boston. The Defendant
cancelled the airline ticket at 9:30 PM.

6

20. On 6/19/2016 at 10:45 PM the defendant sent a text message to Jacob Babai to tell him
cancelled the airline ticket prior to the flight so you do not waste money.
21. On 6/19/2016 at 11 PM Jacob Babai replied to the defendant to the text message said “Ok
thank you”.
22. On 6/20/2016 also the alleged victim Sanaz Siyonit send the voicemails to the Defendant’s
sister and stated I wanted to give him $7000 plus $1000 for his flight yesterday but he did not
accept. The exculpatory voicemails evidence is prove of innocence for Hamid and is prove of
the bribes, the intimidation of witness and making the false police reports by the alleged victim
Sanaz Siyonit and her family Jacob Babai, David Merfeld and Bonnie Friedman.
23. On 6/20/2016 one day after the Defendant Refused to leave the United States, Refused to take
the Bribes from American Jewish people and the Alleged victim and Refused to sell his family,
by plot from Jewish people and order from the U.S. Government, the Commonwealth of
Massachusetts without any happened, any injury for the Alleged victim and any evidence for
prove of any crime, only based on the false police reports Discriminated and absolutely illegal
arrested the Defendant because was close to time for taking his Green Card. He explained to
the police on yesterday the Alleged victim bought the airline ticket and the flight was
scheduled to leave the Boston on yesterday. Also, the Defendant explained to the police on
yesterday and 30 minutes prior to the false police reports the Defendant was at the Cambridge
police station and the Alleged victim’s family gave him the airline ticket and counted cash
under review of the camera to Bribes him with $7000 in cash and the airline ticket for forcing
him to leave the United States Immediately and not go to the Court. The Defendant Requested
to the police for take the video of camera of the Cambridge police station on yesterday but the
police officers withheld and ignored this Exculpatory Material Information and refused to
take the video evidence.

7

24. On 6/22/2016 the Defendant was arraigned on the current charges of raping his wife of 18
years. The judge in the Cambridge District Court, allegedly unconstitutional only by using the
false police reports and absolutely illegal making false, Judgment for $ 100,000 cash bail and
send him Jail Billerica, DOC in the Jail Billerica for 14 months using hard mental and physical
torture for the Defendant.
25. The Defendant explained to defense counsel McGowan those 30 minutes prior the Police
reports, the Defendant was at the Cambridge Police Station and his wife’s (alleged victim)
family was counting cash under review of the camera to bribes him with the Airline ticket and
$7000 in cash for forcing him to leave the U.S.A.
26. CPCS McGowan stated to the Defendant that the defendant must wait and we will get the
video. Yet 3-4 months later CPCS McGowan never motioned to preserve evidence.
27. The Defendant also explains to CPCS McGowan he possesses multiple messages from the
alleged victim (who is his wife) clearly showing intimidations and threats of deportation if the
Defendant does not accept the bribe of $15,000. (Also a voicemail from the alleged victim can
explain).
28. The Defendant explains to CPCS Attorney the Airline ticket and the counting of cash at the
Police Station was explained to Police officers yet they withheld this exculpatory material.

g

29. On 8/18/2016 the District Attorney CeaRa Mahoney Allegedly Unconstitutional by using only
the alleged victim Sanaz Siyonit making false statement to the Grand Jury which resulted in 8
false charges for the Defendant, there was no any prove only a false verbal statement from the
alleged victim Sanaz Siyonit (my wife of 18 years) without any evidence of criminal activity
by the Defendant, no mark, no picture, no medical paper, no injury, no witness, the alleged
victim in the Grand Jury minute stated after punching her face a lot, strangled and rape on her
without any injury Immediately went to work, not went hospital and not call police. The first
attorney Caroline McGowan gave the Defendant 26 pages allegedly unconstitutional the Grand
Jury minute and told him the District Attorney CraRa Mahoney only is able to use the alleged
victim Sanaz Siyonit as witness and only is able to use the false Grand Jury minute as evidence,
cannot use anything more at trial, no evidence and no witness for prove of 8 false charges for
against actual Innocence the Defendant.
30. In open Court the Defendant after 11 months of ineffective counsel, asks Judge to discharge
counsel. The Defendant explained to Judge the CPCS McGowan is not pursuing exculpatory
evidence.
31. Judge asks CPCS McGowan the video, voicemail, text messages and the Airline ticket are
evidence?
32. CPCS McGowan stated it was not evidence in a willful misrepresentation and disregard of the
truth.
33. Second CPCS counsel did nothing to pursue exculpatory evidence and refused to use the
statement.
34. Third Attorney would not even look at the Defendant’s text messages, voicemail and video
now placed in his possession, refused to use exculpatory evidence and did nothing for defend
the Defendant.

9

35. On 5/4/2017 the Defendant showed in open Court a letter and new pictures of his wife (the
alleged victim) mailed and sent for the Defendant in Jail in violation of restraining order but
the defense Attorney grabbed his hand and stated “You cannot use this evidence in Court.”
36. On 5/6/2017 DOC in the jail Billerica stole all evidences and the Pictures from the Defendant
He for protest to the U.S. Government for stole and destroy his evidence and using hard torture
for him in the Jail, for 22 days did not eat any food, he loses 45 pounds weight and was close
to die but the U.S. Government does not care about his life, ignored his protest, never give
back his evidences and continued hard torture for him in the Jail Billerica.
37. The United States and Commonwealth of Massachusetts using power of Government for
destroy all evidence, falsely said destroyed pictures and video evidence because hiding crimes
of 5 counts of the Intimidations of witness and 5 counts of the Bribes for protecting guilty the
alleged victim Sanaz Siyonit and her family Jacob Babai, David Merfeld and Bonnie Friedman
because they are American Jewish.
38. Shortly after the Defendant in open Court explained to judge his evidence was stole at the j ail
and his attorney would not assist, Judge assigned to new counsel.
39. Fourth CPCS Attorney Daniel Flaherty stated to the Defendant the messages to include
voicemail. Messages bribes, counting cash at Police Station (30 minutes before Police report),
is not exculpatory material favorable to the accused.
40. On 8/2/2017 the Defendant in open Court fired counsel and interpreter and presented 5 PRO­
SE motions:
a) Motion to discharge interpreter Talebinejad and CPCS Daniel Flaherty with request to
represent himself.
b) Motion to produce video evidence at Cambridge Police Station
c) Motion to dismiss charges

10

d) Motion to a speedy trial.
e) Motion to complaint from the alleged victim Sanaz Siyonit and her family Jacob Babai,
David Merfeld and Bonnie Friedman.
41. Trial Judge asked the Defendant why he wanted to dismiss CPCS Flaherty.
42. The Defendant responded he does not want to use my evidence; he making false statements
and refuses to confrontation against the alleged victim and her family.
43. The judge stated “Do you have money to hire an attorney.” This is the 4th attorney if you fire
him you have to pay money for hire an attorney.
44. The Defendant stated he does not have money and does not want any more attorneys because
no attorney wants to use my evidence. I want to represent myself, use my evidence and prove
my innocence.
45. The judge Stated “no you cannot represent yourself.” You must go to the Bridgewater State
Hospital for 20-days evaluation, refused to discharge fake defense counsel and interpreter.
Ignored all pro-se motions, and refused to file the exculpatory evidences.
46. A 15 (a) took place at the Court in which the Defendant’s should Court evaluator his evidence.
47. The Court initiated process under 15(b); despite all the defendant’s evidences in hand, under
pretext to silence the accused in the Bridgewater State Hospital. Judicial Power abused to be
oppressive.
48. On 8/22/2017 the defendant again in open Court attempted to present his exculpatory evidence
to Judge in which his attorney CPCS Daniel Flaherty refused to use.
49. On 8/29/2017 Dr. Jessica Surratt of Correct Care Solutions falsely stated under oath Hamid
has an order for medication and refused to take it. (Was not any order for medication).
50. Medical records clearly reflect the order never existed for medications for 9 months (SEE
EXHIBIT).

II

51. Dr. did swear falsely in open Court and falsely testified that Hamid was paranoid arid did not
know Court process.
52. Recent staff at Bridgewater Dr. Robert Portney, who is also staff of MGH and McLean
Hospitals and faculty of Harvard Medical School, reported “I have seen no evidence for any
Psych Pathology but I remain concerned that he is not given adequate representation due to
the language barrier and his natural distrust of a foreign land. However, he has always been
pleasant and cooperative with me.” “I can order no psych medication at this time as I have no
idea what I would be treating.” (SEE EXHIBIT)
53. The Defendant is erroneously deprived his liberty under G.L.c.123 section 15 (b) without his
Constitutional guarantee to “fair procedure.”
54. The defendant is a student of law, files in the Middlesex Superior Court of the motion to
discharge counsel and appointment of mew counsel, declaration in support of Motion and
certificate of service to:
(1)

District attorney CeaRa Mahoney

(2)

Clerk of Middlesex Superior criminal Court

(3)

Trial judge of Docket# 1681CR00418

(4)

Chief justice trial Court Paula Carey

Service was made on 2/6/2018. (SEE EXHIBIT)
55. The defendant was never given “fair hearing” on the motion under Article 12 and the Sixth
and Fourteenth Amendments, again ignored motion and refused to discharge counsel and
interpreter.
56. On 1/5/2018 and 3/9/2018 the Defendant field a complaint with Board Bar of Overseers on
CPCS Flaherty. (But remember Hamid does not understand Court Process)
57. Flaherty has not communicated with the Defendant for 20 months.

12

58. The present lawyer Daniel Flaherty failed to pursue exculpatory evidence in possession of the
Defendant’s brother, to include exculpatory the voicemails and the messages but refused to
file in the case.
59. Counsel Flaherty stated in open Court the alleged victim wanted to help the defendant by
offering $7,000 and bought the airline ticket for him.
60. This outrageously non loyal assistance of counsel is “shocking” to the principle of the Sixth
Amendment Jurisprudence to not use exculpatory evidence of the bribes and the intimidations.
instead labeling as “help”.
61. The Defendant field motion to discharges counsel and fired Daniel Flaherty in open Court on
08/02/2017 but the Middlesex Superior Court Allowed motion to discharges counsel on
04/04/2019 and after 2 years without Criminal Defense Counsel keeping the Defendant in a
mental Hospital appointed a new defense counsel for the Defendant.
62. Debra Dewitt is fifth fake defense counsel Hamid filed a motion to discharge counsel and
fired her.
63. The Defendant fired 14 fake defense counsels, 7 Criminal and 7 Mental Health defense
counsel.
64. On 3/15/2018 the Defendant Hamid Reza Ardaneh was not agree for divorce but the
Cambridge Family Court without Rights to Defense Counsel, without rights for split money,
does not call him for the Court, without rights for defense seif, himself any Rights for the
Iranian legal Refugee making false Judgment of divorce for Sanaz Siyonit and by injustice
take my wife from me.

13

65. On 6/30/2018 the Cambridge District Court for the false restraining order allegedly
unconstitutional against me of false charge without any evidence, without rights to discovery,
without rights to defense counsel, without rights to true translation, without rights to defense
self, ignored my exculpatory evidences for prove of my innocence and prove of violating the
restraining order with bribing and intimidating of witnesses by the alleged victim and her
family, without any Rights for alone Iranian legal Refugee by absolutely injustice, prejudice
and discriminated Judgment permanent order and take my son from me forever. That is prove
my claims are true for against the U.S. Government about taking my family wants make fake
crime and to deport me because I am not Jewish but my Iranian wife and my son are Jewish.
66. On 05/09/2018 the Dr. David Holtzen by false evaluation and the Brockton District Court
without any fundamental and Constitutional Rights, without Rights to Counsel, without Rights
fort Independent evaluation, without Defense myself making false Judgment, incompetent for
stand trial, one year commitment in the BSH and Rodgers order forcing to take false Psych
medication by Allegedly false Reason of Likelihood of serious harm without any evidence for
prove.
67. On 05/09/2019 Expire the Court order and the Defendant refused to take false Psych
medication.
68. After 7 month Refused medication from 10/02/2019 to 12/02/2019, 308 witnesses, 253
American Employee, 93 American Men and 160 American Women of Staff of the Bridgewater
State Hospital signed for Supporting of facts and proved I Hamid Reza Ardaneh am not
dangerous, I did not anything Wrong and I am always Respectful to Everybody.

14

69. On 12/11/2019 Dr. Sara Laniado by false evaluation and the Brockton District Court ignored
308 witnesses and Exculpatory Material Evidences, without any fundamental and
Constitutional Rights, again without defense myself, using allegedly false evaluation and
testify, without any prove call me dangerous to others, making false judgment for one more
year commitment to BSH, incompetent for stand trial and again false Rodgers order forcing
me to take dangerous false Psych Medications.
70. The Commonwealth cannot make a final Jury Trial for the Allegedly. Unconstitutional false
Criminal charges that why by Abusive Process, without fundamental and Constitutional Rights
making Allegedly Unconstitutional false mental health case, on 05/09/2018 and 12/11/2019
making false Judgment without any prove call me dangerous to others, incompetent for stand
trial, deprived of life and liberty for Actual Innocence and forcing me to take dangerous false
Psych Medications.
71. In the Commonwealth of Massachusetts, a defendant found competent to stand trial if he has
sufficient present ability to consult with his lawyer with a reasonable understanding, and if he
has the rationale as well as the factual understanding of the proceedings against him. See
Commonwealth v. Ernest L. Vailes, 360 Mass. 522 (1971).
72. Involuntarily committed patients have substantive Constitutional rights to Refuse Medication.
The state cannot ignore due process and simply seizes a person and Administer drugs to him
without his consent. Procedural due process requires the state to prove that the
institutionalization of a patient is Required by Reason of his being danger to himself or others
or property if he is not so confined. See John E. Rennie v. Ann Klein, 653 F. 2d 836, 1981
U.S. App. Lexis 11589.

15

73. The United States making absolutely illegal and false Criminal Case for the Defendant and the
District Attorney have no any evidence and no any witness for trial but the Defendant have so
many Exculpatory Material evidences for prove of he is actual Innocence and the Alleged
victim and her family are guilty for the Intimidating and the Bribing the Defendant, that why
the Commonwealth of Massachusetts by false Judgments and the Bridgewater State Hospital
using liar Doctors by false evaluations and false reports making fake and false mental illness
for the Defendant forcing him to take false Psych medications and making falsely Incompetent
for stand trial keep him in the Hospital and is 5 years deprived of life and liberty for actual
Innocence the Defendant because hiding crimes of 5 counts of the Intimidations of witness
and 5 counts of the Bribes for protecting guiltys the Alleged victim Sanaz Siyonit and her
family Jacob Babai, David Merfeld and Bonnie Friedman because they are American Jewish.
74. The United State is 5 years deprived of life and liberty for actual Innocence Iranian legal
Refugee the Defendant Hamid Reza Ardaneh using dangerous psych medications to kill the
Defendant’s brain for making mental illness for him, using hard mental and physical torture
for making mental illness for him by torture, using attack physically and mentally for forcing
him to fight or to do crime making serious injury for his body and his mental because wants
making falsely dangerous and fake mental illness for him because hiding crimes for protecting
4 guilty American Jewish people.

16

75. Is 5 years by order from U.S. Government all Attorney on purpose only harm me. The United
States by this trick forcing me to fire Attorney and falsely said if he Refuse to take medications,
he fired Attorneys, he is mentally ill and cannot work with Attorneys. So, the United States
using Attorneys for making fake and false mental illness for me not to Defense me because
there is no any evidence for prove of any mental illness for me but 253 American employee of
the Bridgewater State Hospital signed for supporting of facts and proved I Hamid Reza
Ardaneh am not dangerous, I did not anything wrong and I am always Respectful to everybody.
76. By order from U.S. Government is 5 years whole Country, the Commonwealth of
Massachusetts, Middlesex Superior Court, Brockton District Court , State and Federal Courts,
all Judges, Massachusetts Attorney General, U.S. Attorney General, U.S. Department of
Justice, Middlesex District Attorney, non-loyal and Ineffective Defense Counsels Refusing to
Investigation in this Case and my claims, ignoring and Refusing to file my statement, my ProSE Brief and my Exculpatory Material evidences of the video, the voicemails, the text
messages, copy of the airline ticket and the signatures of 253 American employee because
hiding crimes for protecting guilty American Jewish people and against Iranian legal Refugee.
77. Clearly the United States violated my Rights under Amendment 1,5,6 and 14 to the U.S.
Constitution, violated my Human Rights and my Civil Rights. I Hamid Reza Ardaneh do not
have any record, did not broken any law, did not any crime, did not fight, did not touch and
did not harm anyone in whole my life that why the Commonwealth of Massachusetts have no
any evidence for prove of Allegedly Unconstitutional fake and false Criminal and Mental
Health charges for me. Is 5 years whole Country, all reporters, newspapers and news TV hiding
this news and Refusing to publication my case because hiding Discrimination, injustice and
torture in the United States for the Iranian Refugee and hiding crimes for protecting guilty
American Jewish people.

17

Materiality

Here, the video evidence of the Alleged victim’s family counting cash of $7000 inside the
Cambridge police station for Intimidating and Bribing the Defendant 30 minutes before the police
reports and the Defendant Refused to take the Bribes from the Alleged victim is Material in which
goes to credibility of the accuser as will as culpability. As culpability and state of mind and other
Exculpatory Material evidence not given to the Grand Jury involved voicemails left by the Alleged
victim Stated “I wanted to give him $7000 plus $ 1000 for his flight yesterday but he did not accept”.
There is other Exculpatory Material evidence not given to the Grand Jury in the form of the text
messages left by the Alleged victim the Intimidating and the Bribing the Defendant First by $ 1000,
then $3000, then $7000 and lastly $15000 and stating paid $1000 and bought the airline ticket for
the Defendant to leave the United States Immediately and if he Refuse to take the Bribes and Refuse
to leave the U.S.A. police arrested, Jailed and deported. Other Exculpatory Material evidence is
copy of the airline ticket proved the Alleged victim the Intimidating and the Bribing the Defendant.
Also other Exculpatory Material evidence is signatures of 253 American employee of the
Bridgewater State Hospital proved I Hamid Reza Ardaneh am not dangerous, I did not anything
wrong, I am always Respectful to everybody and I am not criminal, 2S3 wi tfiQSS es of OocfoRS,

Ounces asi cl & If staff of the Hospital pRoved he is not /venhlly ill.
0then Exci/lpatifiy Maternal evifences CiRe 3 Repents of the FtRst
Psychi&tRish Reported *1 have seen no evidence For any Psych
Patholoqe,*f Can o&deft no Psych /medication at this hme
I
\\&ve no idea ufhai l b/ouid he hne-ahing, Id a
Is in the Hospital -

18

no f

uhy he

Defendant’s Argument
1.

If on 6/2/2016 the Defendant did Assault and Battery and Strangled and Rape on the Alleged
victim then why 17 days after on 6/19/2016 the Alleged victim bought the airline ticket for the
Defendant for forcing him to leave the United States?!!!

2.

If on 6/2/2016 the Defendant did Assault and Battery, Strangled and Rape on the Alleged
victim then why 17 days after on 6/19/2016 the Alleged victim the Intimidating and the Bribing
the Defendant?!!!

3.

If on 6/2/2016 and 12/29/2015 the Defendant did crimes and harm the Alleged victim then
why the Alleged victim not went to hospital and not call police?!!!

4.

Why on 6/19/2016 30 minutes after the Defendant refused to leave the United States and
refused to take the Bribes from the Alleged victim, she filed police reports for false crimes on
6/2/2016?!!!

5.

If on 6/19/2016 the Alleged victim filed false charge of oral sex on 6/2/2016 by the Defendant
then why on 6/19/2016 the Alleged victim in her text messages stated “I will fuck his
mouth”?!!!

6.

The Alleged victim in Grand jury minute Stated on 6/2/2016 after Assault and Battery,
Strangled and rape without any injury Immediately want to work at 6:00AM!!!

7.

On 6/2/2016 the Alleged victim and the Defendant was not alone 3 more people was in the
Home but no one hear or see any crime and there is no witness from home for any injury for
the Alleged victim!!!

8.

On 6/2/2016 the Alleged victim after Assault and Battery Strangled and rope immediately
went to work at 6:00AM but there is no witness from her job for any injury for the Alleged
victim!!!

I?

9.

If on 6/2/2016 the defendant did crimes then why 17 days after on 6/19/2016 the Alleged
victim in her text messages stated the Defendant must leave the United States and not must go
to Court and if the Defendant Refused to leave the United States, I will put him in jail and
deport him?!!!

10. If the Defendant want do Rape in the United States then why did not rape on so many Beautiful
American girl and without any Reason did Rape on his Iranian wife of 18 years?!!!
11. If the Defendant is dangerous and was not respectful to his wife of 18 years then why 308
witnesses, 253 American employee, 93 American Men and 160 American Women of Staff of
the Bridgewater State Hospital signed for supporting of fasts and Proved the Defendant Hamid
Reza Ardaneh is not dangerous, Did not anything wrong and he is always Respectfull to
everybody?!!!
12. On 6/2/2016 the alleged victim and defendant and their son and David Merfeld and Bonnie
Friedman was in the home, the defendant was asleep and without any happened and without
any injury the alleged victim went to work at 6:00 AM.
13. The defendant Hamid Reza Ardaneh did not broken any law, did not any crime and did not
harm anyone in whole his life, only he wanted making better life for himself and his family
that why they came refugee to the United States but his wife the alleged victim was agree with
offer of the United States for making false crimes for the defendant and accept American
Jewish rich husband that why the alleged victim do not want the defendant take his green card
and want he leave the United States immediately that why the alleged victim bought the airline
ticket for the defendant, the intimidating and the bribing the defendant , that why after the
defendant cancelled the airline ticket and refused to leave the United States and refused to take
the bribes from the alleged victim , she filed allegedly false charges and only want to deport
the defendant.

20

14. If there is no any evidence for prove of any crime, no any injury for the alleged victim, no
witness for any crime, no mark, no picture, no medical paper and no witness for any injury for
the alleged victim that is prove all charges and indictments are false and the defendant is actual
innocence and did not any crime.
15. The defendant Hamid Reza Ardaneh together his family by using visa refugee absolutely legal
came to the United States and he have social security number too. The defendant is 42 years
old and he was married for 18 years , he have good personality and do not have any record ,
he is respectful to all laws and to everybody , did not broken any law, did not any crime , did
not fight, he is not criminal and not dangerous, did not touch and did not harm anyone in
whole his life that why the Commonwealth of Massachusetts have no any evidence for prove
of allegedly unconstitutional false criminal and mental health charges for the defendant that
why using powers of the U.S. Government and by false judgments and false evaluations
making false mental illness and falsely incompetent for stand trial deprived of life and liberty
for actual innocence Iranian legal refugee and hiding crimes of the intimidations of witness
and the bribes for protecting guilty the alleged victim Sanaz Siyonit and her family Jacob
Babai, David Merfeld and Bonnie Friedman because they are American Jewish Rich.
16. The defendant has been charged with three (3) counts of rape in violation of G. L. c. 265, $ 22
(b). to find a defendant guilty of rape under G.L.C. 265, $ 22 (b); the Commonwealth must
prove two elements beyond a reasonable doubt; first, that there was sexual intercourse between
the defendant and the victim; and second, that the defendant compelled the victim to submit to
the intercourse “by force or threat of force and against the will of the victim.” Commonwealth
v. Lopez, 433 mass. 722, 726 (2001). See G. L. c. 265, $ 22 (b) (compels such person to submit
by force and against his [or her] will, or ... by threat of bodily injury”). The second element
has been interpreted as encompassing two separate elements — force or threats and lack of

21

consent. See Commonwealth v. Sherman, 481 Mass 464, (2019) citing Commonwealth v.
Lopez at 727. To satisfy the force or threats element, the Commonwealth must prove “that the
defendant committed sexual intercourse by means of physical force; nonphysical, constructive
force; or threats of bodily harm, either explicit or implicit. The Commonwealth can argue that
in this case there is more than sufficient evidence of the use of force since the Defendant
allegedly struck the Alleged victim in the face, strangled her, and pulled her hair. However,
the Commonwealth cannot rely solely on the alleged use of force to support its charge of rape
against the Defendant. The government must also prove through convincible that the
Defendant lacked consent “at the time of penetration.”
17. In Commonwealth v. O’ Dell, 392 Mass. 445 (1984) the Supreme Judicial Court affirmed the
dismissal of an indictment. Concluding that the integrity of the Grand Jury proceeding was
impaired by an unfair and misleading presentation to Grand Jury.
18. The Grand Jury can only properly exercise its dual function, establishing probable cause, while
protecting citizens from false accusations of crimes, through evidentiary procedures consistent
with the Constitutional guarantees of article XII. Thus, an indictment must be Dismissed if not
supported by probable cause. See Commonwealth v. McCarthy, 385 Mass. 160,163 (1982).
19. Ordinarily a Court will not inquire in to the competency or sufficiency of the evidence before
the grand jury. However, in commonwealth v. McCarty, the Supreme judicial Court of
Massachusetts Recognized a limited exception to this general rule, concluding that a Court
must dismiss an indictment where the grand jury fails to hear any evidence of criminal activity
by the defendant.
20. The Grand jury has the dual function of determining whether is probable cause to believe a
crime has been Committed and of Protecting Citizens against Unfounded criminal
prosecutions. See Lataille district Court of E. Hampden, 366 Mass. 255,531(1974).

2?

21. Here in this Case the Grand Jury failed to hear any evidence of Criminal activity by the
Defendant Hamid Reza Ardaneh and the District Attorney Failed to Present the Defendant’s
Exculpatory Material evidences and Exculpatory InfoRmations to the Grand Jury, also was
not any injury For the Alleged victim and if was not any injury was not For the Alleged victim
and if was not any injury was not any Crime. So the Middlesex Superior Court must Dismissed
all false Indictments for the Case No. 1681CR00418 with Prejudice.
22. Clearly in this Case are two different story:
A. On 6/2/2016 the Alleged victim and the defendant and 3 More people was in the home
and the Alleged victim stated after the Defendant punching her head and face a lot,
strangled and Rape on her the Alleged victim without any injury Immediately went to
work at 6:00 AM not went to Hospital and not call police. For prove of this story there
is no any evidence and no any witness from her job and from home for any crime or
any injury for the Alleged victim, no mark, no picture, no medical paper and no any
evidence of criminal activity by the Defendant.
B. The Defendant stated on 6/2/2016 he was asleep and without any happened the Alleged
victim went to work at 6:00 AM the Defendant stated on 6/19/2016 the Alleged victim
and her family bought the airline ticket for the Defendant, the Intimidating and the
bribing the defendant for forcing him to leave the United States Immediately and 30
minutes after the defendant cancelled the airline ticket, refused to leave the United
States and refused to take the bribes from the Alleged victim and her family, on
6/19/2016 at 8:22 PM the Alleged victim filed false police reports for false crimes on
6/2/2016. For prove of this story there is so many evidences; the video of the Alleged
victim’s family counting cash of $7000 for the Intimidating and the bribing the
Defendant 30 minutes before the Alleged victim filed false police reports, the

23

voicemails and the text messages left by the Alleged victim for the Intimidating and
the bribing the Defendant on 6/19/2016, copy of the airline ticket and investigation of
the airline ticket proved on 6/19/2016 the Alleged victim the intimidating and the
bribing the Defendant.
Now I am asking from all judges which story is false and which story is true???

23, I his flrgufnenf' and os/10/e my Qrfe Fare fads &od proved by evidences
but is S yeaes the whole Justice System ignoring and Refusing to
file and entry in my Case,
?L 1 havencfishtsto Counsel., falsely making incompetent foR Hand trial
' £* deprived of Ri^ts to fxoceed PRO-SB and the US. Government
and Commonwealth of Massachusetts threatened any one want t*
Help me or any ({Homey wants take my Case So I hano
Wire cin fUhrneytoo because the Justice System making fake

.

for against actual Innocence Iranian leqai KeruqeCrimes foe protecting guilty American Jewish people,
2S. In £ years So many lime l sent by Certified mil my PRO-Si
Exculpatory Material evidences and my PPO-SE Motions fat e er<:
of the Middlesex Superior Court and the District Attorney but they
never entry anything in my Case because my Brief and evidences provi 3
thtf police Reports, the Grand Jury minute, all my Indtchnen sare A
and the Commonwealth absolutely illegal arrested and Jailed me. Also fir
hiding discrimination,prejudice, injustice and torture making Falsely
delusional,paranoid and S° many more false mental illness by false medical
Record and Allegedly Unconstitutional false evaluations and farcing me
to take false Psych medications because lgnorin3 all facts fa hiding
actual crimes far protecting 4 guilty American Jewish people.

24

List and Reasons of all errors and abuses

1. Discriminated Allegedly unconstitutional without any prove and absolutely illegal arrested the
Defendant.
2. Discriminated Allegedly unconstitutional without any prove and absolutely illegal by false
Judgment Jailed the Defendant.
3. Allegedly false police reports.
4. By Allegedly unconstitutional false grand jury without any prove making false indictments for
the Defendant.
5. The grand jury failed to hear any evidence of criminal activity by the Defendant.
6. The district attorney failed to present the exculpatory Informastions and the Defendant’s
exculpatory material evidences to the grand jury.
7. There is no rights to counsel under the Sixth Amendment to the U.S. Constitution. The
Commonwealth of Massachusetts using my attorneys for making false guilty for the false
crimes not for Defense me. All Attorneys on purpose only harm me. The United States by this
trick forcing me to fire attorneys and wants falsely said if he refuse to take medications he fired
attorneys he is mentally ill and cannot work with attorneys. So the United States using my
attorneys for making fake and false mental illness for me and forcing me to take false psych
medications not for Defense me also by this trick making falsely incompetent for stand trial
and deprived of life and liberty for actual innocence Iranian legal refugee the Defendant
because there is no any evidence for the trial to make him guilty. So the United States using
my attorneys for making fake and false mental illness or false guilty or falsely incompetent for
stand trial and keep me for whole life in jail or hospital because hiding actual crimes for
protecting actual guilty American Jewish rich people that why all attorneys refusing to use my

statement, my PRO-SE Brief, my exculpatory material evidences and my witnesses, refusing
for investigation in my false case and refusing for file a complaint against the Alleged victim
and her family for the intimidating and the bribing the Defendant because they are American
Jewish Rich. The United States using fake defense counsels for injustice, hiding crimes to
protecting guilty and against actual innocence and using attorneys for deprived of all
fundamental and all Constitutional rights for the defendant not for defense him. If the
Commonwealth pay for counsels all counsels only working for the Commonwealth not for me
that why is fake rights to counsel.
8. The Courts making false excuse of competency for deprived the defendant of rights to proceed
PRO-SE, also ignoring PRO-SE motions to discharge counsel and for the appointment of new
loyal and effective assistance of counsel and refusing to hear all PRO-SE motions and violated
all Constitutional rights for the defendant.
9. I have the rationale as well as the factual understanding of the proceeding against me, I am not
mentally ill and not dangerous, so absolutely I am competent for stand trial but the
Commonwealth only by allegedly unconstitutional false evaluations and reports without any
evidence for prove by absolutely false judgments making falsely dangerous to other and
likelihood of serious harm for making falsely incompetent for stand trial for me.
10. There is no true rights for independent evaluation because I cannot choice my own doctor and
there is no rights to true evaluations because the Commonwealth only using liar doctors and all
evaluators without any evidence for prove of any mental illness absolutely illegal only using
my false criminal charges and my false police reports and ignored I am actual innocence, did
not any crime, did not fight and not harm anyone in whole my life but by order from U.S.
Government all liar doctors without any prove falsely call me mentally ill and dangerous to
others.

26

11. There is no rights for true translation by certified interpreter. I am a legal refugee English is my
second langue and my English is not perfect so is necessary to true translation but the
Commonwealth of Massachusetts using interpreters for false translations to hiding facts and
making false guilty for me in the false criminal and mental cases.
12. The Courts violating my rights to use my witnesses. I have two witnesses for proved of the
Alleged victim and her family the intimidating and the bribing the defendant 30minutes before
filed false police reports. I have the witness who is the first psychiatrist and was not liar reported
I am not mentally ill, not must take any psych medication and he does not know why I am in
the hospital. Also I have 308 witnesses of inside the hospital and 253 American employee of
the Bridgewater State Hospital signed for supporting of facts and proved I Hamid Reza Ardaneh
am not dangerous, I did not anything wrong, I am always respectful to everybody, I am not
mentally ill and not criminal but the Commonwealth ignoring all witnesses and I have no rights
to use any of the witnesses because all Judges hiding facts for making false mental illness,
falsely incompetent or false guilty for me to hiding crimes for protecting guilty American
Jewish people.
13. There is not rights to discovery because the Commonwealth did not present any evidence of
criminal activity by the defendant, did not present any evidence or any reason for illegal
arrested and jailed the defendant, did not present any evidence for keeping him in a mental
hospital or for falsely incompetent, did not present any evidence for prove of any mental illness
or dangerous to others or likelihood of serious harm or for forcing him to take false psych
medications. Also is 5 years the Commonwealth of Massachusetts, all Courts, all Judges, all
clerk, the district attorneys, non-loyal and ineffective fake defense counsels not accept, ignoring
and refusing to file my statement of facts and exculpatory informations , my PRO-SE Brief and
my exculpatory material evidences and refusing for investigations for the false cases and false

17

charges because hiding actual crimes for protecting guiltys the alleged victim and her family
because they are American Jewish Rich and making false crimes to jailed for whole life actual
innocence Iranian legal refugee the defendant or to deport him because he is not Jewish but his
Iranian wife of 18 years and his son are Jewish and the United States taking his not from him
and making American Jewish husband for his wife.
14. The Commonwealth of Massachusetts and all Judges of the Brockton District Court always
violated all my Constitutional rights, no rights for independent evaluation, no rights to counsel,
no rights to discovery, no rights to use my witnesses, no rights to true translation by certified
interpreter, no rights to use my exculpatory material evidences and no rights to represent
myself, on purpose making absolutely unfair trial for forcing me to protest for injustice and by
this trick making falsely reason of mental illness and kick me out the Court room because they
know I have enough evidence can defense myself and to win false case and like that by trick
hiding facts and only by allegedly unconstitutional false evaluations and false testify without
any evidence for prove of any mental illness or any dangerous to others or any likelihood of
serious harm making false judgments for falsely incompetent for stand trial, one more year
deprived of life and liberty in the hospital, punishment for actual innocence and forcing to take
false psych medications for not mentally ill to kill my brain because I am so smart.
15. The Commonwealth by falsely in competent for stand trial and false mental illness deprived
me of self-representation and by punishments of deprived of life and liberty in the hospital
and forcing to take false psych medications wants to forcing me to accept non loyal, ineffective
and fake defense counsels for not using my evidences to make me guilty for false crimes and
jailed me for whole life because hiding crimes for protecting guilty the alleged victim and her
family because the are American Jewish Rich that why every time I am fired my attorney
forcing me to take more false psych medications and my treatment team stated I must accept

28

non loyal and ineffective fake defense counsels, I must forget and not use my exculpatory
material evidences in the Courts.
16. The Commonwealth using mental and physical torture, attack physically and mentally for
forcing me to fight or to do crime because wants making false meatal illness or dangerous to
others for me.
17.1 Hamid Reza Ardaneh have no any record, did not broken any law, did not any crime, did not
fight, did not touch, did not harm anyone in whole my life, I am not mentally ill, not dangerous
and not criminal and I am always respectful to everybody that why the Commonwealth of
Massachusetts have no any evidence for prove of illegal arrested and jail me, illegal keeping
me in the mental hospital, falsely call me Incompetent for stand trial and illegal forcing me to
take false psych medications and that why the United States refusing to investigations for my
claims and the false cases.
18. The defendant have the exculpatory material evidences of the video of the alleged victim’s
family 30 minutes before the police reports under review of the camera at lobby of the
Cambridge police station counted cash of $7000 and gave the airline ticket to the defendant for
the intimidating and the bribing the defendant, translated of the voicemails and the text
messages left by the alleged victim on 17 days after false crimes and before filed the false
police reports 5 counts of the intimidating and 5 counts of the bribing the defendant, copy of
the airline ticket and investigation of the airline ticket proved the alleged victim and her family
the intimidating and the bribing the defendant before filed the police reports and 17 days after
false crimes, 308 witnesses and 253 American employee of the Bridgewater state hospital
signed for supporting of facts and proved I Hamid Reza Ardaneh am not dangerous, I did not
anything wrong, I am always respectful to everybody, I am not mentally ill and not criminal, 3

Z7

reports of the first psychiatrist stated I am not mentally ill. I not must take any psych medication
and he does not know why I am in the hospital.
19. The alleged victim sent a letter and new pictures for the defendant in the jail. DoC in the jail
Billerica stole all evidences from the defendant because the Commonwealth wants to destroyed
all his evidences but the defendant’s family have and save all his evidences and sent for him
again but the Commonwealth destroyed the pictures and the video evidences.
20. I am fired 7 mental Health and 7 criminal defense counsels because there is no any result and
all attorneys on purpose only harm me. The Commonwealth of Massachusetts by fake defense
counsels deprived me of all my fundamental rights and violating Amendment 1,5, 6 and 14 to
the U.S. Constitution, Article 1, 10, 11, 12 and 29 to the Massachusetts Declaration of rights,
my civil rights and surely my human rights.
21. If you review all this errors and abuses, my PRO-SE Brief, my exculpatory material evidences,
my PRO-SE motions to discharge counsel and for the appointment of new loyal and effective
assistance of counsel and my PRO-SE motion to dismiss and to consider the Commonwealth
have no any evidence clearly can understand whole criminal and mental Health cases and all
my charges are false and plot from the U.S Government to jailed me for whole life or to
deported me or to kill me because taking my family from me and give to Jewish people and
hiding crimes for protecting guilty American Jewish people.
22.1 do not have any challenge for competency, I have challenge only for prevent of discrimination
and injustice, I do not have any rights in the United States, for all this errors and abuses call
injustice and I am only requested “A Justice” in the United States.

30

Article 11 to the Mass. Constitution

The Defendant claims he have violated his rights under Article H of the Massachusetts Declaration
of rights. Art. 11 of our Declaration of rights guarantees to every citizen the right to “obtain right
and justice freely, and without being obliged to purchase it; completely, and without any denial;
promptly, and without delay; conformably to the laws, “and without having to file a lawsuit. Here
the Defendant to the attention of several Judges that his lawyers were not pursuing a litany of
exculpatory evidence to include video of the Alleged victim’s family counting cash of $ 7,000 in
the lobby of the Cambridge Cambridge Police station 30 minutes before the Alleged victim filed a
Police Reports. As well as the messages of the intimidations and the bribes directly in the
Defendant’s hands in open Court. Yet Judges failed to take any inquiry into the fairness of these
proceedings or effectiveness of counsels’ representation. That has reduced these proceedings to a
sham. This Defendant under Art. 11 should not have to purchase his guaranteed trial rights by filing
this Prima- Facie case of retaliation. Article 11 already provides these rights under the State
Constitution. To have to use the First Amendment petition clause to enforce these rights is “grave
unfairness” and has brought the judiciary into disrepute.

31

Article 29 to the Mass. Constitution

The Defendant claims his rights under Article 29 are being impinged based upon extra-judicial
source of their natural district the Defendant’s national origin of being Iranian as well as a language
barrier this impermissible Consideration is having a discriminatory affect up the Defendant’s
Rights under Article 29 of Massachusetts Declaration of Rights. The Judges’ outward expression
of partiality and willful disregard of Law during deliberative process in motions to discharge
counsel out Of severe personal animosity but for cause discrimination toward national origin has
affected Reasonable judgment and has manifest of bias and prejudice. Such bias and prejudice in
the Defendant’s proceedings have impaired the fairness of the proceeding and have now brought
the judiciary into disrepute. See S.J.C Rule 3:09, Canon 3(b)(5), as appearing in 440 mass. At 1312,
Commentary to B 3B (5). There is no question this prima-facie pleading poses a serious dispute
concerning the administration of justice now requiring injunctive relief in the case at bar there has
been partial interpretation of the laws as well as a willful disregard for the Defendant’s guaranteed
Fifth, Sixth and Fourteenth Amendment trial rights effective assistance of counsel and compulsory
process. Commonwealth v. Rogers clearly the S.J.C. made clear motions to discharge counsel
requires action yet the lower Courts have completely ignored the Defendant’s substantive
assertions that CPCS attorneys’ are totally denying assistance this prima-facie pleading has alleged
sufficient facts, except it as true to state a claim of relief under Article 29 of the Massachusetts
Declaration of Rights. Require an injunctive relief.

32

Reasons for Granting the Petition
This Case proved Mafia are dangerous for the U.S.A. and most
Judges, Attorneys and Doctors working for Mafia.
Mafia forcing people to do crimes for business with Courts,
Jails and Hospitals and for this business deprived of life and
liberty for people that why are so many Courts,JJails and
Hospitals in the United States but original business are making
Psych medications and mafia need making customer for Psych
medications, so need to making mental illness for people that why
in Jails using hard torture for making mental illness.
If torture does not work by excuse of competency for stand trial
sending people to Hospitals. After 23 hour a day keep people in
cell and using hard mental and physical torture in Jails giving
more freedom, more food and good time for prisoners in Hospitals
and by this trick

forcing to prisoners for choice Hospitals and

using false medications or if some one do not choice be mentally
ill mafia

using Hospitals and Doctors for making false w .

evaluations and false reports making false medical record and by
false Judgment forcing to take false medications because Mafia
making money with sell Psych medications.
I Hamid Reza Ardaneh am a legal Refugee status also I have
Social Security Number. I am actual innocence and requested
"A JUSTICE"

so

the petition for a writ of Certiorari should be

Granted. If ihe Cour/ denied my Petition again there is no Justice
Fbr Iranian Refugee in whole fhe United States and if o/hole Country
denieded Requested foR a Justice you have no Justice System but
you have mafla system for DiscRimtnatfon, injustice, torh/re and forcing
tohake* false Psych medications and deprived of life and liberty /©/? the
ua' innocence Iranian and hiding actual crimes P>r protecting guilty
Iwerican Jewish people. pise [ am Requested
granted my Petition and
eaft my Case f&r protecting the United States and nice Rmerican people.

33

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

HartidReza Rrdaneh
Date:

04,02,2021

34

